HHS/OIG - Audit -"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 2000,"(A-04-01-04000)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 2000," (A-04-01-04000)
October 30, 2001
Complete
Text of Report is available in PDF format (403 kb).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The final report points out that the National Institute of Environmental Health Sciences (NIEHS):  incurred Superfund
obligations and made disbursements for allowable, allocable, and reasonable costs, but had discrepancies between the Integrated
Time and Attendance System (ITAS) and employees' earnings and leave statements; appropriately charged overhead; did not
have a need to record costs on a site-specific basis; and submitted a timely minority contractors' utilization report that
was supported by relevant data.  Our recommendations focused on NIEHS correcting its problems with the systems for
timekeeping and earnings and leave statements.  The NIEHS agreed with our findings and recommendations.